CERTIFICATE OF COMPLIANCE
Case No.
Caption: Nekebwe Superville v. United States
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 2,853 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 12, 2019.

Ginmo Zeon
Anne Lamb
Record Press, Inc.

Sworn to before me on
November 12, 2019
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Quali
'n Kings Count
Noyfinlier
issio

tary Public

